No. 19-488
IN THE SUPREME COURT OF THE UNITED STATES
_________________
STEVEN T. WALTNER AND SARAH V. WALTNER,
PETITIONERS
v.
COMMISSIONER OF INTERNAL REVENUE
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 15th day of January 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3,188 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
January 15, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 15, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0488
WALTNER, STEVEN T., ET UX.
COMMISSIONER OF INTERNAL REVENUE

DONALD WILLS WALLIS
UPCHURCH, BAILEY AND UPCHURCH P.A.
780 NORTH PONCE DE LEON BLVD.
ST. AUGUSTINE, FL 32084
904-829-9066
DWALLIS@UBULAW.COM

